     S P E C I A L I N S P E C T O R G E N E R A L FOR I R A Q R E C O N S T R U C T I O N

January 28,2009

The Honorable Jeffrey E. Schanz
Office of Inspector General
Legal Services Corporation
3333 K St NW
Washington, DC 20007-3558


Re: Peer Review of LSC OIG's Audit Function

Dear Mr. Schanz:

As requested by the 'President's Council on Integrity and Efficjency (PCIE), we have reviewed
the system of quality control for the audit function of the LRgal Services Corporation (LSC)
Office of the Inspector General (OIG) in effect for the year ending March 3 1.2008. A system of
qua1i ty control encompasses an OIG' s organizational structure and the policies and procedures
established to provide it with reasonable assurance that the OTG is conforming to generally
accepted government auditing standards (GAGAS'). The elements of a quality control system
are described in GAGAS, which is issued by the ComptmIler General of the United States. The
standards state that OIGs are responsible for designing and complying with their control systems
in all material respects. Our objective was to determine whether the LSC OTG's designed and
i mplernented internal qua1ity control system provides reasonable assurance that applicable
auditing standards, policies, and procedures have been followed, The standards require that
based on our review, we express an opinion on the adequacy of the system" design and the
OTG's compliance with the system.

Based on our review we are issuing an unmodified opinion. According to the PCIE guidance, an
unmodified opinion should be issued when the review team finds that a quality controt system is
designed adequate1y and is functioning as prescribed and thus has yielded reasonable assurance
that GAGAS was met. At the same time, we identified a number of areas in audit quality
assurance and audit guidance that could he strengthened. The OIG generally concurred with our
observations and recommendations, and we therefore consider a1 I peer review matters closed.
The agency's complete response to the draft report appears as Exhibit C.

Our review was conducted jn accordance with the guidelines established by the 'President's
Council on Integrity and Efficiency and the Executive Council on Integrity and Efficiency. In
performing our review, we gained an understanding of the OIG's system of quality control. In
addition, we tested compliance with the OIG's quality control policies and procedures to the
extent we considered appropriate and adequate ta meet our objectives. These tests included the
           -         -         -
1
    Government Audititag standard.^. 2003 Revision, which was effective for the period being reviewed.
application of the OIG's policies and procedures on selected audits: three performance audjts
conducted in-house and one financi a1 statements audit conducted by an independent public
accountant and moni tared by the OIG. Typically, a peer review covers the l -year period of the
OIG's last two semiannual reports. However, the OIG had issued on1y one report on a
performance audit conducted in-house during that period. According1y, to have a sufficient
universe of performance audits from which to sample, we expanded the scope of our review to
include the last six semiannual periods. This period covers the 3-year period Apri I 1 , 2005,
through March 31,2008. Because our review was based on selective tests, it would not
necessarily disclose aII weaknesses in the system of quality control or all instances of the lack of
compliance with it. Nevertheless, we believe that the procedures we used provide a reasonable
basis for our opinion. We discuss in more detail how we performed our work i n Exhibit A,
Scope and Methodology.

Departures from the system may occur and not be detected because any system of quality control
has inherent limitations. Also, the projection of any evaluation of a system of quality control to
future periods is sub.ject to the risk that the system of quality control may become inadequate
because of changes in conditions or because the degree of compliance with the policies or
procedures may deteriorate.

Unmodified Opinion
In our opinion, the system of qua1j ty control for the audit function of the LSC OIG in effect for
the year ended March 3 1, 2008, was designed to meet the requirements of the quality control
standards established by the Comptroller General of the United States for a federal government
audit organization and was complied with during the year ended to provide the OIG with
reasonable assurance of generally conforming with applicable auditing standards, policies, and
procedures.

We noted, however, conditions that warrant your attention even though they did not impact our
opinion. As discussed in more detai I in the Findings and Recommendations section of this
report, we noted the following three overall conditions:

        The three performance audits that we reviewed had minor deviations from OIG's
        fieldwork and reporting policies and procedures and GAGAS.

        The OIG has not conducted periodic internaI quality control reviews of its audits even
        though it agreed to do so in its response to a prior peer review' finding and
        recommendation and after modifying its audit policies and procedures to require such a
        review.

        The OIG's audit policies and procedures have some gaps that create weaknesses in its
        quality control system.

During our peer review, we also noted that the LSC Board of Directors and management had in
the recent past taken actions that could be viewed as attempts to unduly control, impede, or
2
                            Corporation Peer Review Repou on Ofice of lospector General I-!
 National Railroad Pa.~.~enger                                                                Services
Corporation, August 5,2005.
                                              PageZof 15
restrict the OIG" independence. While the number of audits performed by the OIG was limited,
we found no evidence that the audits that we reviewed were adversely affected by the Board's
actions. Moreover, the current IG has clear1y indicated his jntent to assert his statutory authority
and is mindful of the protections to the OTG's organizational independence provided for by the
Inspector General Act. Nevertheless, we documented this issue to full y describe the audit
operating environment and as an issue for consideration under the next peer review. This issue i s
discussed in more detail in Exhibit B, Genera1 Comments.

Findings and Recommendations
Finding 1 - Minor deviations from freldwnrk and reporting standards

The three performance audits that we reviewed had minor deviations from OlG's fieldwork and
reporting policies and procedures and from GAGAS. The following provides the detaiIs of our
fieldwork and reporting findngs.
Workkg paper security:
The OIG's audit poticies and procedures manual and GAGAS 7.69 require that working papers
be adequate1y secured.
Initially. we were unable to determine whether one of the three performance audits met GAGAS
fieldwork and reporting standards because documentation for planning and reporting on the
audit, including documentation of the independent referencing process, was missing from the
working papers. However, during the exit conference, the OIG provided copies of
documentation showing that the referencing process was adequately completed and explaining
that the otjgi nal referencing documentation was misplaced.
Audit Planning:
The OIG's audit policies and procedures manual and GAGAS 7.07 require that the succeeding
items be included in all audit plans.
Two of the three performance audits that we reviewed have audit plans that did not ( I ) identify
the needs of potential report users, (2) docurnen t approval by management, (3) include audit
steps to identify prior related audits, and (4) document why some audit steps were not completed.
Documentation and Evidence:
The OIG's audit policies and procedures manual and GAGAS 7.48 through 7.71 incorporate
requirements for meeting the need for documentation and evidence.
Two of the three performance audits that we reviewed did not verify the reliability of computer-
based data used to support findings, lacked documentation of sampling plans, and relied on
testimonjal evidence without attribution.
Statements on Internal Controls:
The OIG's audit policies and procedures manual and GAGAS 8.17 state that auditors should
include En the audit report the scope of their work on internal controls.

One of the performance audit reports states that the audit included such tests of internal controls
as considered necessary under the circumstances. However, the internal controls statements
                                           Page 3 of 15
should have included descriptions of the scope of the internal controls tested, such as citing the
specific program regulations or procedures that were tested.
Recommendation 1
We recommend that LSC IG take action to reinforce with the audit staff the need to meet all
GAGAS requirements and to provide training to a1I staff on the stdndards.
LSC OIG Response
The OIG concurs with our findings and said that it would take prompt action to implement the
recommendation. The response states that, since his arrival in March 2008, the IG has made
several policy and practice changes that address some of the issues identified, such as putting
physical security controls in place for audit working papers. The response fuflher states that the
OTG will provide related periodic training and is developing a comprehensive checklist to be
completed for each audit assignment that will ensure that all required items are included in the
audit file. The checklist will also serve as a training device and will remind all staff to review
their work to ensure that audit objectives are met and that GAGAS are consistently applied.
Finding 2 - Need to strengthen internal quality controls
GAGAS 3.50 states that an audit organjzation's internal quality control system should include
procedures for monitoring, on an ongoing basis, whether the policies and procedures related to
the standards are suitably designed and are being effectively applied
The OIG has not conducted periodic internal quality control reviews of its audits a1though i t
agreed to do so in its July 36,2005, response to a prior peer review finding and recommendation.
The OIG had modified its policies and procedures to require the reviews, but they were not
implemented. The organization's last peer review found that the OIG did not have an internal
quality assurance program in place and recammended that one he established and that periodic
reviews of audits be conducted. The OIG explained that the reviews were not conducted because
of resource constraints and the lack of projects conducted under GAGAS requirements.
Nonetheless, the OIG concurred with the finding and recommendation and Incorporated policies
and procedures for periodic quality reviews of audits in to the office's audit manual effective
September 1,2005. However, the OTG has not performed the quality reviews since establishing
the policies and procedures. OIG officials explained that they had not conducted the reviews
because of limited staff resources and more critical work, such as responding to particular issues
and information requests from Congress.
Our assessment of the OIG's audit staff resources and audit workload showed that staff resources
were Eimi ted. The OTC's audit operation has on1y seven positions: three audit supervi son and
four auditors. GAGAS 3.5 1 provides the following relief under such condi tjons:
        'The nature and extent of an audit organization7s internal quality control system
        depends on a number of factors, such as its size, the degree of operating autonomy
        allowed its personnel and its audit offices, the nature of its work, its
        organizational structure, and appropriate cost-benefit considerations. Thus, the
        systems established by individual audit organizations will vary as will the need
        for, and extent of, their documentation of the systems. However, each audit
        organization should prepare appropriate documentation for j ts systern of quality
        control to demonstrate compliance with its policies and procedures. The farm and
        content of such documentation is a matter of j udgment. Documentation of
        compliance should be retained for a period of time sufficient to enable those
                                           Page4of 15
          performing monitoring procedures and peer reviews to evaluate the extent of the
          audit organization's compliance with the quality control policies and procedures."

Because we could not initially determine whether one of the three performance audits reviewed
met GAGAS fieldwork and reporting standards due to missing documentation related to the
independent referencing process, we believe that some level or form of periodic quality control
review should be conducted.
Recommendation 2
We recommend that, given its limited staff resources, the TSC IG establish an alternate quality
control process designed to ensure that the audit documentation includes evidence that the audit
met GAGAS and modify its audit manual accordingly, consistent with GAGAS 3.5 I .
LSC OTG Response
The OIG agrees with the recommendation, stating that it appreciates the peer review team's
recognition of the background and context in which the internal quality control program was
estahlished. The response further states that any significant deviations from policies will be
documented in the future. Consistent with the recommendation, the OIG states that it will
review current policy and establish an a1ternate quality control process as provided for in
GAGAS 3.51.
Finding 3 - Gaps in audit policies and procedures
While the system taken as a whole provides reasonable assurance that the LSC OIG has
complied with GAGAS in producing audit products, our review nevertheless, did identify some
gaps in policy implementing guidance that create weaknesses in the OTG's quality control
system. This i s an opportune time for the O'IG to ensure that its audit poIicies and procedures are
effective, comprehensive, and complete considering that they need to be updated to reflect the
2007 revision of GAGAS.3 The following details the gaps in the policies and procedures.
Auditorsbunderstanding of independence requirements
GAGAS 3.08 states:
          "...audit organizations should include as part of their internal quality control
          system requirements to identify personal impairments and assure compliance with
          GAGAS independence requirements. At a minimum, audit organizations should:

          b.   communicate the audit organization's policies and procedures to a1I auditors
               in the organization and assure understanding of requirements through
               training or other means such as auditors periodical1y acknowledging thei s
               understanding.. .."
The OIG's audit policy and procedures manual relies solely on auditors to report any personal
independence issues in conducting an audit. However, no management controls are in place to
ensure that auditors comply with the standard or to provide them guidance on impairment and
independence issues. Internal quality control procedures are necessary to help deternine
whether audi tots have any personal i rnpaiments to independence in conducting audits or
performing nonaudit services and to ensure an understanding of the requirements through
3
    Gowrnment Auditing Sbandrsrds, 2007 Revision.
                                                Page 5 of 15
training or other means, such as auditors periodical I y acknowledging their understanding through
a proactive declaration of independence.
Taking corrective action on the results of external peer reviews
GAGAS 3.52 states that an audit organization should take remedial, corrective actions as needed
based on the results of peer reviews. Although the LSC OIG's audit manual identifies external
quality control reviews as a component of its quality control program, i t does not provide
policies and procedures for taking remedial corrective action, as needed, on the results of such
reviews.
Determine reputation and standing of independent public accountants
GAGAS4 require auditors to inquire about the professional reputation and standing of other
auditors such as the independent public accountants ( P A ) that the OIG hired to audit LSC's
financial statements. The OIG's audit manual requires the project manager to review an
auditor's qualifications but does not specifically require inquiries about an aadi tor's professional
reputation and standing.
Terminating an audit
GAGAS 5.38 states:
"If an audit is terminated before it i s completed but the auditors do not issue an audit report,
auditors should write a memorandum for the record that summarizes the results of the work to
the date of termination and explains why the audit was terminated. In addition. auditors should
communicate the reasons for terminating the audit to management of the audited entity, the
entity requesting the audit, and other appropriate officials, preferably in writing. This
communication should be documented."
OIG's audit manual does not include policies and procedures for terminating an audit before it is
completed.
Attestation engagements
GAGAS, Chapter 6, addresses attestation engagement standards. The LSC OTG manual does not
have policies and procedures on planning, conducting, and reporting on attestations. Although
the O1G's comments in PCIE's Appendix A, Section 1, questionnaire state that the OIG has not
performed attestation engagements, LSC management's request chat OIG review grantee internal
controls may be considered an attestation engagement. The 2007 revision to GAGAS includes
significant fundamental changes that further clarify attestation engagement standards.
Nanaudit services
GAGAS sections 2.14 through 2.16 and 3.10 through 3.18 contain 12 specific standards d a t e d
to providing nonaudi t services while protecting the organization's and an individual auditor's
independence. Currently, the OIG' s audit manual does not have policies and procedures for
providing nonaudit services. Although the OIG's comments in PCIE's Appendix A, Section 1.'
questionnaire indicate that the OIG does not typically engage in nonaudit services, we have

a
  AU Section 543.10 of the AICPA auditing standards i s incorporated into GAGAS.
5
  P C E 's Guide for Conducting Exter~lalQuraliiy Co~tarofReviews of the Audit Operations of QfJices of lnspectnr
General, Appeadix A, Section S, questionna~rerequests OIGs to provide the peer review team specific information
about ~ t polic~es
           s       and procedures designed to ensure compliance with general1y accepted government auditing
standards.
                                                 Page 6 of 15
identified what appear to be nonaudit services provided by the OIG during our review period.
Some examples we identified that appear to be forms of nonaudjt services provided include:
    3 Inspections
    P Audit Service Reviews
    "r Reviews of Grantees' Annual Audit Reports
    "u Mana~ementAlerts
    > Advisory services to the LSC Board of Directors
    > Regulatory Task Force
    3 Recommendations to Commi ttee for 2007 Regulatory Agenda
    9 Report on Certain Fiscal Practices at LSC
Moreover, the 2007 revision to GAG AS contains significant new fundamental requirements that
Further clarify nonaudi t services, the impact on auditors' independence, and enhanced
requirements for a system of quality control that may be applicable to the CSC OIG.
Recommendatian 3
We recommend that the LSC IG direct that the OIG's existing audit policies and procedures be
completely revised by a timely date. In completing this revjsion, the OTG should identify and
use best practices of other OTGs and tailor them to meet its operating envimnrnent consistent
with GAGAS.
LSC OIG Response
The OIG agrees with our recommendation and asserts that it will implement it prompt1y. The
response reiterates that upon his arrival the new IG addressed some of the issues identified by the
review team, specifically with respect to auditors' understanding of the independence
requirements, by issuing the k g a l Services Qfice O ~ I ~ S ~ C IGen~ral
                                                                   U ~ O I " Sratement qf
Prqfessional Srandards. Those standards amplify LSC' s Code of Ethics and Conduct and
address all impairments to independence as contained in GAG AS. Finally, the OTG states that it
wiII review its audit manual and modify it as necessary.
SlGIR Response
The OIG's planned actions as noted above are responsive to our review's observations and
recommendations and, if proper1y implemented, should address all maters rdised during this peer
review. We are encouraged that the OIG has completed or intends to complete all actions on our
recommendations by April 30,2009.




Sincere1y yours,



Special Inspector General for Iraq Reconstruction




                                          Page 7 of 75
                                                Exhibit A
                                         Scope and Methodology
SIGIR conducted its review o f the LSC OIG's system of quaIity control in accordance with the
guidelines established by the President's Council on Integrity and Efficiency and the Executive
Council on Integrity and Efficiency. In performing our review, we obtained an understanding of
the OTG's system of quality control. In addition, we tested compliance with the OIG's audit
quality control policies and procedures and GAGAS\O the ex tent we considered appropriate.
These tests included the application of the OIG's policies and procedures on selected audits.

Typically, a peer review would have covered the I -yeas period of the last two semiannual reports
issued by the OIG to the Congress. However, because the OIG had issued only one report on a
performance audit conducted in-house during that period, we expanded the scope of our review
to include the last six semiannual reports covering the 3-year period ApriF 1,2005, through
March 3 1,2008, to have a sufficient universe of perfonnance audits from which to select.
During that 3-year period, the OIG issued nine audit reports: five performance audit reports
conducted in-house by OIG auditors and four financial statement audit reports conducted by
P A S . We selected a sample of four audits to review: three performance audits and one financial
statement audit. The audits selected included:

      P Finuncial Statements and It~dependentAuditors ' Report, September 30,2006 and 2005,
        and June 2007.

      B Interim Repo~ton Munagcrment Oversight of Grunraes - Office of Program Performance,
          Report No. AU07-02, April 2007.

      >   Z~ntevimReport on Management Oversight ofGrantees- Office of Compliance, and
          En forcement, Report No. AU06-02, March 2006.

      3 Audil of UC'S Two Million Dollars ($2,000,000)Lundord Contrihusion
        Report No. AW05-06, June 2005.




5
    Government Auditing Satantfasds, 2003 Revision, which was effective for the period being reviewed.
                                                   Page 8 of 15
                                             Exhibit B
                                         General Comments
External actions could be viewed as attempts to unduly control, impede, or restrict OIG's
organizational independence

During our peer review we noted that the LSC Board of Directors and management had in the
recent past taken actions that could be viewed as attempts to unduly control, impede, or restrict
the OIG's independence. The OIG's independence was also of concern to LSC's congressional
oversight committee, which held hearings on the matter in September 2006. Independence is key
to auditots' ability to ultimate1y form objective opinions and conclusions. The Inspector General
Act and other OIG authorizing legislation7 provide statutory protections for independence as
required by GAGAS 3.25.

GAGAS 3.03 states that the general standard d a t e d to independence is:

        "In all matters relating to the audit work, the audit organization and the individual
        auditor, whether government or public should be free both in fact and appearance
        from personal, external, and organizational impairments to independence."
GAGAS 3.19 states:

        "Factors external to the audit organization may restrict the work or interfere with
        auditors' ability to form independent and ob-jective opinions and conclusions.
        External impaimen ts to independence occur when auditors are deterred from
        acting objectively and exercising professional skepticism by pressures, actual or
        perceived, from management and employees of the audited entity or oversight
        orgdnjzations. For example, under the following conditions, auditors may not
        have complete freedom to make an independent and objective judgment, and an
        audit may be adverse1 y affected:

    a. external interference  or influence that could improper]y or imprudently limit or modify
        the scope of an audit or threaten to do so, including pressure to reduce inappropriately the
        extent of work performed in order to reduce costs or fees;

    b. external interference with the selection or application of audit procedures or in the
       selection of transactions to he examined;

    c. unreasonable restrictions on the time aIIowed to complete an audit or issue the report;

    d. interference external to the audit organization in the assignment, appointment, and
       promotion of audit personnel:




7
 Inspector General Act of 1978, as amended, Public Law 95-452, P 1, and Fiscal Year 1996 Legal Services
Corporation Appropriations Act, Public Law 104- 134.
                                               Page 9 of 15
   e. restrictions on funds or other resources provided to the audit organization that adversely
        affect the audit organization's ability to carry out its responsi bi E
                                                                             ities;

   f. authority to overrule or to inappropriate! y influence the auditors"udgment as to the
      appropriate content of the report;

   g. threat of replacement: over a disagreement with the contents of an audit report, the
      auditors' conclusions, or the application of an accounting principle or other criteria; and

   h. influences that jeopardize the auditors' continued employment for reasons other than
      incompetence, misconduct, or the need for audit services."

During the 3-year review period from April 2005 through March 2008, LSC had three
Inspectors General, including one in an acting position. The first of the three served from
September 2004 through September 2007. The second served as Acting Inspector General from
September 2007 through February 2008 and is currently the Assistant Inspector General for
Audit. The third and current Inspector General was appointed jn February 2008. SIGIR
identified actions of the LSC Board and management during those 3 years that could he viewed
as attempts to unduly control, impede, or restrict the O1G's independence while it was auditing
or investigating LSC expenditures and other transactions. Some of the OIG's work was being
conducted at the request of LSC's congressional oversight committee. The following are
examples of actions and congressional concerns about those actions that the LSC Board and
management took:

    >   LSC management issued a 2006 Memorandum of Understanding (MOU) for an
        information-gathering protocol requiring that OTG requests for information be directed to
        the LSC General Counsel and that the Counsel deliver the information.

    2 In June 2006, the LSC Board proposed to rate the Inspector General, which was also a
      matter of concern addressed in a September 2006 hearing before LSC's congressional
      oversight commi ttee, the Subcornmi ttee on Commercial and Admini strati ve Law of the
      Committee on the Judiciary, House of Representatives.

    P A letter to LSC From the congressional oversight committee in April 2006 and a
      subsequent congressional hearlng addressed concern that the Board was considering
      firing the prior Inspector General; likewise, the hearing examined the issue of efforts to
      impede the IG's independence, including testimony from the then-IG in that regard.

Impairments to independence can permeate all aspects of the OIG's audit activities, often with
imperceptible adverse affects. However, we identified no audits that appeared to have been
adversely affected, and we obtained evidence indicating that the prior Inspector General and
current Inspector General were not intimidated by the Board's actions. The prior Inspector
General was not reluctant to exercise his independence in conducting audits and reporting on
them after the work was conducted or to act on matters that required management to be
accountable for resolving audit issues. For example




                                             Page I0 of 15
      >   The prior Inspector General, having initially agreed to the MOU that restricted or limited
          direct access to records, short1y afterward rescinded the MOU as unworkable in an Apri I
          2006 memorandum to the Board.

      k Further, i n April 2006, based on concerns about possible efforts to fire him, the prior
        Inspector General reported the matter to the oversight committee and later testified in a
        hearing on the attempts by the Board to impede his independence. In response, the
        committee sent the Board the letter stating that j t would be unwise to fire the lnspecror
        General, who ultimate1y was not fired.

Our discussions with the current Inspector Genera1 and actions he has taken over his 8-month
tenure indicate that he has asserted and intends to continue asserting the statutory authority and is
mindful of the protections to the OIG's organizational independence provided for by the
Inspector Genera1 Act. The Inspector General also said that the Board's recent formation of an
Audit Committee should help to ensure independence. In addition, in the coming months, a new
Board will be appointed by a new administration, the audit policy and procedures manual is
expected to be revised to cornpl y with the revised 2007 GAG AS,"^^ our findings and
recommendations on improvjng the audit policy and procedures could also be addressed at that
time. Moreover, the recently amended Inspector General ~ c t addresses
                                                                 '          the Inspector General's
independence by, for example, requiring a 30-day advanced written notice to both the House and
Senate of the intent to remove an Inspector General and the reasons For the action. Nonetheless,
this environment makes it even more imponant that the OIG ensure compliance with GAGAS
and adequately document the audit planning, execution, and reporting processes. Therefore, we
are documenting our observations related to the independence issue to ensure that the future peer
review team will be aware of them when planning and conducting its review.




8
    Government Auditkg Standards, July 2007 Revision.
9
    Inspector General Reform Act of 2008, Public Caw 110 -409.
                                                Page 11 of 15
                           Exhibit C
Legal Services Corporation, Office of Inspector General Response




  January 21.2009



  The Honorable Stuart W. Bowen, Jr.
  Special Inspector General for Iraq Reconstruction
  400 Army Navy Drive
  Arlington, VA 22202

  'Dear Mr. Bowen:

  Thank you and your staff for conducting the peer review of the Legal Services
  Corporation, Office of Inspector General's audit program. We appreciate the team's
  comments and the professional and thoughtful manner in which they conducted
  themselves during the review.

  I am pleased that your review resulted m the issuance of an unmodified opin~on.
  indicating that the LSC OIG's quality control system was designed adequately and
  was function~ngas prescribed and thus yielded reasonable assurance that Generally
  Accepted Government Auditing Standards (GAGAS) were be~ngmet.

  We are also mindful that any organization's policies, procedures, and practices can
  be improved, and appreciate your identifying areas for improvement in our
  operations. As you will see from our detailed responses (attached), we are
  mrnrnltted to implementing each of the recommendations in your report, and have
  included estimated completion dates for each or the anticipated actions.

  I appreciate the opportunity to comment on the draft peer review report and look
  forward to receiving the final repost. Again, I thank you and your team for your
  efforts and courtesres in conducting this peer review.

  Sincerely,


  %f!$&igp
  Inspec or Genera


  Attachment




                                   Page 12 of 15
                                                                          ATTACHMENT


Flndings and Recommendations

          -
Flndlng 1 Minor deviations from fieldwork and reporting standards




We recommend that LSC IG take action to reinfom with the audit staff the need to
meet all GAGAS requirements and provide training to all staff on the standards.

LSC OIG Response

While the finding indicated these were minor deviations, we are committed to lmprovlng
our operations and will take prompt action to implement the recommendation. Since 1
arrived in March 2008, several ~rnportamtpolicies and practices were promulgated
addressing some of the issues identifled by the peer review. In one of my first adlans,
phys~calsecurity controls were put in place over the file room and procedures were
established to sign out files that were removed from the file room. These procedures
wtll help ensure the secur'i of the files and are now included in the 01G Administrative
Manual published December 30,2008.

As we modify and upgrade wr policies to incorporate the July 2007 Yellow Book
standards. we will include requirements for wriodic training on all standards. While the
minor deviations cited in the peer review drd not irnpacl the validity of the findings
contained in the underlying reporls, to ensure that 5!1 r q w i r d items are adequately and
properly addressed, a comprehensive checklist will be developed and completed for
each audit assignment. The checklists will include the items identified in R e above peer
review finding as well as other applicable items, Both the auditor and the supervisor
w~llsign-off on the checklist assunng that all required items are ~nclrrdedin the aud~tfile,
In addition to being a quality control tml, the chgGklisZ will also be a trainrng dev~cethat
wfll remind all staff members to review tfie~rwork, ensuring that audit objectives were
met and that GAGAS were consistent!y applied.

We are also evaluating electronic work paper applications to standardize the audit
product. (Estimated Completion Date: April 30,2009)




                                    Page 13 of 15
Finding 2 - Need to strengthen internal quaRty controls

Rscommendatlan 2

We recommend that, given its limited stafl resources, the LSC IG establish an alternate
quality control process that ensures audit dmurnentat~onsupports the audit having met
GAGAS and modify its audit manual accotdingfy,consistent with GAGAS 3.51.


LSC OtG Response

The OIG agrees with the recommendation and appreciates the peer review team's
recognition of the background and cantext in which the internal quality control program
was established. When the policy on an internal qual~tycontrol program was re-
evaluated after the last peer review, the OIG anticipated it would be canductlng a
significant number of grant audits under GAGAS. This, we believed, warranted a more
elaborate internal quality assurance program, ~ncludingan annual review of the entire
qual~ty control system.      However, because of other priority demands, Including
congress~onaHyrequested major reviews, the office dtd not conduct enough GAEAS
projects to warrant t h e more elaborate program. (rndependent referencing of aud ~t
reports was also an established part af our quality control program. All reports reviewed
by the peer revrew team were independently referenced .) The rationale for the dac~sion
to not conduct the annual review was not documented. In the future, any significant
deviations from policies w~llbe documented and retained on file.

Consistent with the recommendation, the OIG will review current policy and establish
an alternate quality control process, affording more flexibility and taking appropriate
consideration of such factors as SIZE. the degree of operating autonomy allowed to staff.
the nature of our work, organizational structure, and appropriate cost-benef~t
considerations, and will mod& our audit manual accordingly, in conformance w~th
GAGAS 3 51. (Estimated Completion Date: April 30,2009 )

Finding 3 -Gaps in audit poilcies and procedures



We recommend thst the LSC lG direct that the OIG's existing audl? policies and
procedures be completely rev~sedby a tlrnely date. In mmpieting this revis~an,the OIG
shouvd identify and use best practices of other OlGs and tailor them to meet its
operating environment consistent wrth GAGAS.

LSC ore RB~PORSB

We agrm with the recommendation and &NiB    take action to implement it promptly




                                   Page 14 of 15
As noted in my response to Recommendation $, a number of new policies and
procedures, implemented following my arrival in March, address some of the issues
identified by the review team. Specfically, with respect to auditors' understandrng of
independence requirements, I issued the Legal Services 0mce of Enspector General
Statement of Professionel Standads, effective August 7 , 2008 The Standards
document amplifies the Legal Services Corporation's Code of Ethics and Conduct and
addresses all impairments to independence as cantained in Government Audilrng
Standards. I have also appointed an eth~esofficer to prov~deadvce and to revtew any
eth~csissues that arlse pertaining to OIG staff members. In addition, I issued guidance
that increases reporting requirements and formalizes supervlsary approval for all OIG
staff members who participate in paid outs~deemployment.

The DIG has relied on the Government Auditing Standards for all areas not specifically
wered In our policy manual, using it as a reference point to ensure that all standards
were being met However, to ensure that our poltcy manual is comprehens~ve.all areas
identified by the review team will be specifically addressed. Moreover, consistent wrth
the recommandation. the full audit manual will be rev~ewedand modified as necessary.
(Estimated Cornpletian Date: April 30,2009.)




                                  Page 15 of 15
